No. 19-123

 

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

Brief Amici Curiae of the United States
Conference of Catholic Bishops and
Pennsylvania Catholic Conference
in Support of Petitioners

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,585 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 3, 2020.

A.

Colin Casey Hogén
Wilson-Epes Printing Co., Inc.

  
